20“5681
No.

Supreme Court of t&e ©utteb States

RYAN SUMLIN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
JUL 1 7 2020
OFFICE OF THE CLERK
SUPREME COURT. US.

CERTIFICATE OF FILING
AND SERVICE

I, Ryan Sumlin, being first duly sworn according to law, depose and say that the required
number of the following documents:
1.)

Petition for Writ of Certiorari to the United States Court of Appeals for the
Sixth Circuit;

2.)

Motion for Leave to Proceed in Forma Pauperis;

were this day filed with this Court and served on counsel for the United States on this same date,
by depositing the required number of originals and copies of the documents into the prison legal
mail collection box, in sealed envelopes, first class United States postage prepaid and addressed

to: Supreme Court of the United States, Office of the Clerk, 1 First Street N.E.,
Washington, DC 20543, and United States Attorney, For The Northern District of Ohio, 801
Superior Ave W, Cleveland, OH 44113, (216) 622-3919) (counsel for respondent) and Solicitor
General, Department of Justice, Washington, DC 20530 (Phone: 202-514-2217) (counsel for
respondent).
I further state that I am incarcerated in the federal prison at Inez, KY 41224, and am
filing the documents pro se.
Signed under penalty of perjury
under28U.S.C. § 1746,this )~7
day of -O' K.
, 2020.

RYAN SUM LIN
62250-060
P.O. Box 2068
Inez, KY 41224

